<html>
<title> - REFORMING THE UNITED NATIONS: THE FUTURE OF U.S. POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     REFORMING THE UNITED NATIONS: 
                       THE FUTURE OF U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

                           Serial No. 112-35

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
65-630                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Susan Rice, U.S. Permanent Representative to the 
  United Nations, U.S. Department of State.......................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Susan Rice: Prepared statement.....................    18

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    59
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Material submitted for the record............    61
Questions for the record submitted to the Honorable Susan Rice by 
  the Honorable Ileana Ros-Lehtinen..............................    64
Questions for the record submitted to the Honorable Susan Rice by 
  the Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York..........................................    71


        REFORMING THE UNITED NATIONS: THE FUTURE OF U.S. POLICY

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Before we begin, on behalf of the committee, I would like to 
express our condolences to the family members of the seven U.N. 
personnel murdered in Afghanistan last Friday, and of the 32 
people, both U.N. staff and others, who died Monday in a plane 
crash in the Democratic Republic of the Congo. If I may, I 
would ask that in our seats we observe a moment of silence for 
those who have lost their lives.
    [A moment of silence was observed.]
    Chairman Ros-Lehtinen. Thank you. After recognizing myself 
and the ranking member, my good friend Mr. Berman, for 7 
minutes each for our opening statements, we will then recognize 
members of the committee who seek recognition for 1 minute 
each.
    The chair will then recognize our distinguished witness and 
a friend of the committee, Ambassador Rice. Following her 
testimony, members will be recognized for questions under the 
5-minute rule.
    Without objection, Ambassador Rice's prepared statement 
will be made a part of the record, and members may have 5 days 
to insert statements and questions for the record, subject to 
the limitations of length in the rules.
    The chair now recognizes herself for 7 minutes.
    It is always a pleasure to welcome you back to our 
committee. Thank you, Ambassador Rice, for your appearance 
today.
    This is the third session the committee has held this year 
on reforming the United Nations. In the past decade, the U.N.'s 
regular budget has more than doubled. But has the U.N.'s 
transparency, accountability, or effectiveness increased in 
proportion?
    Well, the former head of the U.N.'s own internal ethics 
office had this to say in her exit report, excerpts of which 
were leaked to the press: ``There is no transparency. There is 
[a] lack of accountability . . . I regret to say that the 
[U.N.] Secretariat now is in a process of decay . . . It is 
drifting into irrelevance.''
    The U.N. has never released the full report to the public. 
Former U.N. Deputy Secretary General March Malloch Brown said 
earlier this year, ``There is a huge redundancy and lack of 
efficiency in the U.N. system, and that the U.N. budget is 
utterly opaque, un-transparent, and completely in shadow.''
    Some take comfort in the U.N. General's call for a 3-
percent cut in the next biennial budget. But 3 percent? That is 
like forgoing a cost of living increase. At our hearing last 
month, we considered lessons learned from past U.N. reform 
attempts to ensure that present and future efforts are based on 
what works.
    The most important lesson? Money talks. In fact, Ambassador 
Rice, you recognized this is a February 2005 op-ed published in 
the Washington Post, entitled ``Promoting Democracy: Money 
Talks.''
    Almost every productive U.S. effort at reforming the U.N. 
has been based on withholding our contributions unless and 
until needed reforms are implemented.
    In the 1990s, when the U.N. regular and peacekeeping 
budgets were skyrocketing, Congress enacted the Helms-Biden 
agreement. The U.S. withheld our dues, and conditioned payments 
on key reforms. When the U.N. saw that we meant business, they 
agreed to changes that saved U.S. taxpayers funds.
    So smart withholding works. Given that now Vice President 
Biden signed on to smart withholding then, and it worked, I 
hope that the administration will agree to support it now.
    But smart withholding alone is insufficient to produce the 
lasting, systemic reform that our U.S. taxpayers are demanding. 
That is why we must move funding for the U.N. budget and the 
U.N. entities from an assessed to a voluntary basis.
    Americans, not U.N. bureaucrats or other countries, should 
determine how much taxpayer dollars are spent on the U.N., 
where they go, and for what purpose. That is at the core of the 
United Nations Transparency, Accountability, and Reform Act, 
which I first introduced in the year 2007, and which I will 
soon be reintroducing with updates to reflect recent 
developments concerning the U.N.
    We should pay for U.N. programs and activities that advance 
our interests and our values. If other countries want different 
things to be funded, they can pay for it. The voluntary model 
works for UNICEF, for the World Food Program, and other U.N. 
entities, and it can work for the U.N. as a whole.
    Catherine Bertini, the former U.N. Under Secretary General 
for management and director of the World Food Programs has 
said,

        ``Voluntary funding creates an entirely different 
        atmosphere at the World Food Program than at the U.N. 
        At the WFP, every staff member knows that we have to be 
        as efficient, accountable, transparent, and results-
        oriented as possible. If we are not, donor governments 
        can take their funding elsewhere in a very competitive 
        world among U.N. agencies, NGOs, and bilateral 
        governments.''

    Ambassador Rice, with respect to the references in your 
prepared testimony to the U.N. Office of Internal Oversight 
Services, I must highlight that scores of procurement 
corruption and fraud cases from the now-defunct Procurement 
Task Force are collecting dust in this Office of Internal 
Oversight Services.
    The job of lead investigator has not been filled on a 
permanent basis since 2006. The individual who currently holds 
that position on an interim basis is under investigation 
himself for retaliating against whistle-blowers.
    Finally, Madam Ambassador, your written testimony says, 
``The U.N. helps isolate terrorists and human rights abusers,'' 
but Iran is on the board of the U.N. Commission on the Status 
of Women. The vice chair of the U.N. Human Rights Council is 
the Cuban regime. The majority of the Council's members are not 
free nations. And until Ghadafi's massacre of civilians forced 
its expulsion, Libya had a seat on the Council.
    The Council, of course, did manage at last month's session 
to adopt six resolutions attacking our free, democratic ally, 
Israel--more than at any previous session. The Council also 
recommended the referral of the anti-Israel Goldstone Report to 
the U.N. Security Council, and the International Criminal 
Court.
    The 5-year review of the Council has indicated no real 
structural reforms will be forthcoming. Even the U.S. mission 
has called this process ``a race to the bottom.''
    The Syrian regime is brutally attacking its people, yet it 
is running unopposed for a seat on the Human Rights Council. 
The absence of structural reforms has real consequences. We 
appreciate the limited tactical victories that the U.S. and 
other nations won at the Council's most recent sessions, but 
that is just not enough.
    Most of us want a more accountable and effective U.N. I 
believe that the way to achieve this is to require reform 
first, pay later.
    And lastly, I ask that the U.S. do all we can, Madam 
Ambassador, to ensure that the Palestinian lobby does not gain 
member status in the U.N. before negotiating a true peace with 
our ally, Israel.
    And now I am pleased to recognize our distinguished ranking 
member, my good friend Mr. Berman, for his opening remarks. 
Welcome, Madam Ambassador.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Thank you very much, Madam Chairman. And thank 
you very much for scheduling this hearing, which allows the 
administration to share its views on the best approach to U.N. 
reform.
    This is one of those issues where, just based on what you 
have outlined in your opening statement, we share the same 
goals, but have very different views of how best to get there.
    I want to thank Ambassador Rice for taking the time out of 
her hectic schedule to be with us today. And before we get into 
the arguments about where the U.N. is flawed and where it is 
doing good work, I just want to follow up on the opening 
comments of my chairman, and remind my colleagues that these 
discussions here aren't just theoretical.
    Behind every U.N. office, program, and mission, there are 
real people who have dedicated their lives to feeding the 
hungry, organizing democratic elections, and keeping the peace.
    As the chairman mentioned, in the last week alone over 40 
U.N. staff and contractors have been killed in the line of duty 
in five different countries around the world. We have mentioned 
the seven that were brutally murdered in Afghanistan, the 32 
that perished in a plane crash in the Congo, a peacekeeper that 
was abducted and killed in Darfur, and another peacekeeper that 
was killed in Haiti, as well as a staff member that was killed 
in the Ivory Coast. And we honor the enormous sacrifices of 
these brave men and women, and send our condolences to their 
families.
    Ambassador Rice, you deserve an enormous amount of credit 
for your work to pass the most far-reaching Iran sanctions ever 
approved by the Security Council, and for your efforts to 
secure U.N. backing for the no-fly zone in Libya.
    We also appreciate the work you have done to promote 
efficiency, accountability, and transparency at the United 
Nations. With many critical issues weighing on the U.N. agenda, 
including the possible recognition of a Palestinian state, the 
continuation of the flawed Durban process, it is absolutely 
essential that the United States maintain a leadership role in 
the organization.
    And our diplomatic standing in New York and Geneva will be 
dramatically weakened if Congress passes legislation that may 
soon be considered in this committee. By withholding a 
significant portion of our assessed dues unless a nearly 
impossible list of conditions is met, this bill would severely 
hinder our ability to pursue U.S. foreign policy and national 
security interests, support our allies, and achieve the reforms 
that both the chairman and I think are necessary.
    On the surface, withholding funds sounds like an attractive 
option. After all, it's an approach many in Congress use to 
encourage changes in the executive branch. But the U.N. isn't 
like the executive branch.
    Like it or not, we are one of 192 member states. And while 
we certainly have tremendous leverage over the Security Council 
and other U.N. organizations, simply refusing to pay our bills 
is counterproductive.
    The last time the U.S.--here we have a different view of 
history. The last time Congress forced the U.S. into 
significant arrears at the U.N., an effort led by former 
Senator Jesse Helms, we lost our seat on the Advisory Committee 
on Administrative and Budgetary Questions, which is really the 
most important U.N. budget panel.
    If the goal of the Helms arrears was to diminish U.S. 
influence and put genuine U.N. reform on the back burner, then 
that goal was achieved beyond anyone's dreams. If, however, the 
objective was to foster meaningful reform, then this 
withholding of dues must be judged a failure.
    That point was clearly articulated by former State 
Department official Terry Miller, one of the Republican 
witnesses at our previous U.N. hearing, who testified--not a 
witness that I called--``Sadly, neither Helms-Biden 
withholding, nor even the long UNESCO withdrawal can be shown 
to have had any--much long term impact on the efficiency, 
effectiveness, or even the integrity of the U.N. system.''
    Ambassador Rice, as the mission in New York gears up for 
the battles ahead, I look forward to hearing your views on how 
withholding U.S. dues to the U.N. would impact our efforts to 
prevent the recognition of a Palestinian state, and pursue 
other U.S. foreign policy and national security interests.
    Unfortunately, much of the debate over U.N. reform has been 
characterized by dated and sometimes exaggerated allegations, 
such as the ``Cash for Kim'' scandal. I agree with Ambassador 
Mark Wallace, the other Republican witness from the committee's 
last hearing, who argued that the State Department and Congress 
need a system of verifiable metrics in order to accurately 
evaluate the progress of U.N. reform efforts.
    Ambassador Wallace testified the United Nations 
Transparency and Accountability Initiative, an effort he 
spearheaded while serving at the U.S. mission in New York, is 
``a user-friendly way for anyone interested in U.N. reform, 
notably many taxpaying Americans, to evaluate the progress 
being made on key reform issues, to ensure that funds were 
utilized efficiently and effectively for their intended 
purpose.''
    We are constantly told by our friends on the other side of 
the aisle that the U.N. is a cesspool of corruption, and a 
money pit for U.S. taxpayer dollars. Yet based on our review of 
the data, UNTAI has demonstrated marked improvement among 
nearly every U.N. agency, program, and fund.
    This is the initiative the previous administration achieved 
before they left office. Why are my friends on the other side 
of the aisle so eager to bypass and undermine a promising 
reform effort begun by Republican appointees in the George W. 
Bush administration?
    Madam Chairman, we agree that much remains to be done to 
promote greater efficiency, accountability, and transparency at 
the United Nations, and to eliminate the anti-Israel vitriol 
that all-too-often emanates from the Human Rights Council and 
other U.N. bodies.
    But we have a fundamental disagreement about the best means 
to achieve that reform. Based on our experience in recent 
years, I would argue that withholding U.S. dues simply doesn't 
work, and that a much better approach is to continue and 
accelerate the quiet but effective approach to U.N. reform 
begun in the previous administration.
    And finally, Ambassador Rice, I would like to reiterate my 
strong support for the work you and all your colleagues in the 
mission in New York have done to promote our foreign policy 
interests at the U.N. Representing the U.S. at the U.N. can 
sometimes be a thankless task, but we are very grateful to have 
you there.
    Madam Chairman, I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman. And 
Mr. Smith of New Jersey, the Subcommittee on Africa, Global 
Health, and Human Rights chair, is recognized for 1 minute.
    Mr. Smith. Thank you very much, Madam Chair. And Ambassador 
Rice, welcome to the committee again. Let me just very briefly 
ask you--and I hope in your testimony you will cover this, but 
just update the committee on the U.N.'s stepped-up efforts to 
seat President Ouattara, who obviously won the election in the 
Ivory Coast. And I know that the U.N. has accelerated its 
efforts, if you could give us an update on that.
    Also on the issue of the upcoming Durban Conference. I know 
we voted no in December, and I greatly appreciate--I know we 
all do--the administration stepping up and trying to defeat 
that. But if you could speak to whether or not we plan on not 
attending--as you know, all the major Jewish organizations have 
strongly recommended that we pull out, and if you could speak 
to that, as well.
    And finally, as I have asked repeatedly, the ongoing 
problems in DR Congo and the new, or relatively fresh, 
allegations of peacekeepers abusing young people, and 
especially young women--you know, it is an ongoing scandal. 
Peacekeepers obviously endure a great amount of risk, but it is 
intolerable to think that some of those peacekeepers are raping 
and committing sexual violence. If you could speak to that, as 
well.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith. Mr. Payne, the 
ranking member on the Subcommittee on Africa, Global Health, 
and Human Rights, is recognized for 1 minute.
    Mr. Payne. Thank you very much, and let me commend you for 
the outstanding work that you continue to do. I agree with 
Ranking Member Berman that I don't think that withholding dues 
is the way to go. As a matter of fact, I think that there are 
countries that would probably want us to withhold dues, so that 
we would continue to reduce our influence in the United 
Nations.
    I think it is the wrong way to go. I would like to commend 
the U.S. for its overwhelming vote in the Human Rights Council, 
which it has won. And I know that we will, once again, 
hopefully, put ourselves up for reelection to the Human Rights 
Council again.
    Let me just say that I commend the great job done in South 
Sudan with the election, and we hope that Abyei can certainly 
be dealt with.
    We appreciate the possible increase in troops in Somalia, 
which I think is a very key area. Uganda and Burundi's 
additional 2,000 troops each, I think, will go far to have more 
of a stability in the Somalia region. I yield back the balance 
of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne. Mr. 
Rohrabacher, the chairman of the Subcommittee on Oversight and 
Investigations.
    Mr. Rohrabacher. Thank you much, Madam Chairman. And 
welcome, Ambassador Rice. I would disagree with my friend Mr. 
Berman. All of us do not have the same goals in mind, and there 
are people on your side of the aisle and on my side of the 
aisle who believe that we should move toward global government.
    And the fact is, the United Nations is being used as a 
vehicle, perhaps, to see how global government will function. 
And if there is anything that has convinced me that we should 
not be moving toward global government, it is the folly of the 
United Nations.
    The fact that right now we are in such an economic crisis 
and we are expected to pay 22 percent of the budget of the 
United Nations with no strings attached is an incredible demand 
on the people of the United States of America.
    So instead of trying to foist off global government on 
them, perhaps we should start working to make sure that our 
country is functioning well. And that means using our resources 
in the best possible way, and not giving it to an organization 
that permits communist China, the world's worst human rights 
abuser, to have a veto power over what it does. Thank you very 
much.
    Chairman Ros-Lehtinen. Thank you. Mr. Sherman, the ranking 
member on the Subcommittee on Terrorism, Nonproliferation, and 
Trade.
    Mr. Sherman. First, I think we have a human rights 
obligation to protect Camp Ashraf from the attacks of the Iraqi 
Government, a government that exists because we put it there, 
and a government that is using the fact that, in actions 
criticized by a United States court, the State Department still 
has the MEK on the terrorist list but has not opened up the 
process to determine whether that decision withstands the light 
of day.
    Now let me trouble you with an accounting issue. We are 
dramatically understating the amount we spend for U.N. military 
actions. This may help you in domestic politics, because you 
can say ``Well, we are not really putting in that much money,'' 
but it undermines your efforts to get other countries to do 
more.
    We are, for example, dramatically understating the cost of 
what we are doing in Libya by using the highly discredited 
marginal cost accounting and reporting that as costing only 
$600 million. We need to use full-cost accounting, which will 
reveal what the American people instinctively understand, and 
that is that effort is costing us billions a week.
    If we use full-cost accounting, which is the proper 
accounting approach, to tell the world what we spend on the 
military actions sanctioned by the United Nations, you will see 
that we are putting in 50 percent, not 20 percent. I yield 
back.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman. Mr. Chabot 
is recognized. He is the Subcommittee on the Middle East and 
South Asia chairman.
    Mr. Chabot. Thank you, Madam Chair. Ambassador Rice, I want 
to be very frank. Whereas I strongly support the 
administration's decision to veto the recent U.N. resolution 
condemning Israel, as chairman of the Foreign Affairs Middle 
East and South Asia Subcommittee I strongly object to your so-
called Explanation of Vote, in which you not only did not 
support Israel, but you actually joined in the criticism of 
Israel.
    In 529 short words, this administration undid most, if not 
all, of the good that had been done by its veto. In my opinion, 
with your words, you in effect threw America's historic ally, 
Israel, to the wolves.
    And secondly, on another issue, following the massacre of 
U.N. staff in Afghanistan last week, the top U.N. official--the 
top U.N. official in Afghanistan--stated that, ``I don't think 
we should be blaming any Afghan. We should be blaming the 
person who produced the news, the one who burned the Koran.''
    I would like to know whether or not the administration 
agrees with that statement, especially when considering that 
the United States is the leading funder and supporter of the 
U.N. around the world, and especially in Afghanistan.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Chabot. Mr. Engel, 
the ranking member on the Subcommittee on the Western 
Hemisphere, is recognized.
    Mr. Engel. Thank you, Madam Chair. And welcome, Madam 
Secretary. Many of us met with you last week, and I want to 
again reiterate that I personally thank you for the wonderful 
job you are doing representing our country.
    We just met with Bank Ki-Moon for breakfast, and we 
expressed some of our frustrations. And I know that will come 
out later in the questions as well, but we are frustrated and 
tired of the U.N. using Israel as a punching bag.
    I am hoping that there can be a repudiation of the 
Goldstone Report. Judge Goldstone himself repudiated it, and I 
gave a speech on the House floor last night saying that the 
U.N. ought to repudiate it as well.
    I chair the Subcommittee on the Western Hemisphere. Very 
chagrined at the unilateral recognition of Palestine by some of 
the South American countries, and that it becomes a 
disincentive for getting the Palestinians to sit down and talk, 
because this way they think they can just get recognized as 
well.
    So these are some of the questions I am going to ask later 
on. And again, thank you personally for your good work.
    Chairman Ros-Lehtinen. Thank you, Mr. Engel. Ms. Schmidt of 
Ohio is recognized.
    Ms. Schmidt. Thank you, Madam Chair. And thank you, Madam 
Ambassador, for being here. I just want to focus my remarks on 
two things.
    The first is the Human Rights Council. You know, it came 
into existence in 2006 to supposedly replace the Commission on 
Human Rights, and it is really, quite frankly, difficult to see 
any difference.
    The Council, while consistently ignoring human rights 
abuses of its own members, such as Libya and Cuba, routinely 
introduces resolutions criticizing and condemning Israel. If 
its only purpose is to denounce our ally in the Middle East, 
then I suggest maybe we ought to move off the Council.
    The second is my concern with the excessive budget of the 
United Nations and the disproportionate share that is being 
paid by the taxpayers of the United States. We are assessed 
almost one quarter of the regular operating budget. We are also 
paying 30 percent of the peacekeeping budget. We are paying 100 
percent of the costs to upgrade the security at the 
headquarters in New York. This amounts to $100 million for that 
alone.
    In the last 10 years, the U.N.'s biennial budget has more 
than doubled. Larger budgets for the U.N. means larger deficits 
for the United States. I think it has come time to reform our 
share of contributions.
    Again, thank you.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Meeks, the 
ranking member on the Subcommittee on Europe and Eurasia.
    Mr. Meeks. Thank you, Madam Chairman. Madam Ambassador, let 
me just first thank you for the great work that you have been 
doing at the United Nations. When we look at you, with all that 
has been going on, we are very proud of you and how you have 
been representing the United States of America.
    I want to also extend my sincere regrets and condolences to 
the U.N. families for the families who lost their lives in 
Afghanistan in service of the United Nations.
    And though we are here today focused on U.N. reform, I want 
to take time to commend the vigorous and vital role the U.N. 
has played in recent life- and security-threatening situations.
    The Security Council's resolution coordinating and shaping 
a unified engagement in Libya, and the U.N. action in Cote 
d'Ivoire represents the U.N. at its muscular, nimble, and 
assertive best.
    On this, the 60th anniversary of the U.N. Convention on 
Refugees, I would like to take special note of the United 
Nations High Commission on Refugees' critical activities around 
the globe, and highlight the role that UNHCR played in 
providing shelter for displaced people in Krygyzstan before the 
winter set in, and tending to the refugees fleeing the fighting 
and discrimination in Libya. And we know that the United States 
representative has shaped such engagement, and we thank you for 
it.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Kelly, the 
Subcommittee on Asia and the Pacific vice chair.
    Mr. Kelly. Thank you, Madam Chairman. Madam Ambassador, it 
is nice to have you with us. I am deeply concerned with the 
U.N. peacekeeping mission, and as we go forward, we are all 
concerned because of the unsustainable debt that the United 
States continues to run up. And using the President's term of 
investments, we have quite an investment in the U.N., and we 
need to see type of a return, a positive return, on that 
investment.
    And so my anticipation through your testimony is going to 
be the U.N. peacekeeping operation in Libya right now, as it 
continues to escalate, and what we look at as a kinetic 
military action, I would like to know what our full commitment 
is going to be as we go forward, and the impact it is going to 
have on Americans and the contribution that we make to the U.N.
    So thank you for being here with us today.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Carnahan, the 
ranking member on the Subcommittee on Oversight and 
Investigations.
    Mr. Carnahan. Thank you, Madam Chair. Welcome, Ambassador. 
Welcome back. We are a little more than 2 years into the Obama 
administration's reform and re-engagement agenda at the U.N. 
and other multilateral organizations, and we think there has 
been important progress.
    While I still have serious concerns about some reform 
efforts at the U.N., and with the Human Rights Council in 
particular, recent successes like the establishment of the 
Special Rapporteur on the human rights situation in Iran, I 
think, are important.
    I was also pleased to hear the announcement of the 
administration that they would be running for another term. I 
believe that the global challenges in the 21st century require 
a strong multilateral engagement.
    Being engaged and at the table is a far better policy than 
one of retreat and disengagement that weakens American clout, 
harms our national interest, and plays into the hands of our 
adversaries.
    I want to see us continue that policy of reform and re-
engagement at the U.N., and I appreciate your strong efforts to 
lead that. Thank you.
    Chairman Ros-Lehtinen. Thank you. Mr. Duncan of South 
Carolina.
    Mr. Duncan. Madam Chairman, I am greatly concerned that we 
lack a clear indication of how much the United States 
contributes to the United Nations through assessed and 
voluntary contributions. In previous hearings, witnesses have 
not been able to provide numbers or statistics on how much we 
are spending, and what specific programs American taxpayers 
support financially.
    Furthermore, in those programs that we do know where the 
money goes, such as the UNRWA and the IAEA, we see multiple 
fundamental problems. UNRWA refuses to vet its staff for ties 
to terrorist organizations, and American contributions in the 
past have fallen in the hands of Hamas.
    That is unacceptable. The Human Rights Council is 
laughable. Its two core institutional flaws plague its system 
with no recourse for change. It allows countries that commit 
human abuses--China, Cuba, Saudi Arabia and Russia--to sit on 
its Council and vote, while possessing continuous platforms of 
one-sided criticism of Israel, a vital American ally.
    America should not tolerate such actions. Ambassador Rice, 
you have a responsibility to uphold the United States 
Constitution, provide for the common defense, and ensure that 
American taxpayer dollars receive the greatest return on our 
investment. I look forward to your responses to my questions.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman. And welcome, 
Ambassador Rice. Three points. One is, I think history says 
that the United Nations has been a vital and essential part in 
complementing U.S. foreign policy interests around the world, 
has been since its founding, which we helped create 65 years 
ago. And people need to remember that.
    Secondly, the idea that we are going to take our marbles 
and go home because we don't like various aspects of the U.N., 
including when it exercises its democratic right to disagree 
with us, is to me a juvenile posture not worthy of a great 
nation. Roll up your sleeves, and make it better. That's the 
answer.
    And thirdly, the idea that the U.N. is part of some global 
conspiracy to create a global government is rehashed right-wing 
claptrap we have been hearing for over 60 years. It ain't true, 
and also unworthy of a great power to even express.
    Thank you, and welcome to the Foreign Affairs Committee.
    Chairman Ros-Lehtinen. Mr. Fortenberry, the vice chair of 
the Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Fortenberry. Welcome, Ambassador Rice, and thank you 
for your testimony today. The United Nations presents us with 
some very serious problems, challenges, as well as potential. 
The body can be used for great good, or it can also facilitate 
great harm.
    We have seen, for example, the commitment and resolve of 
U.N. troops in the Ivory Coast to help quickly end that 
country's nightmare.
    However, when the power of the U.N. is used as a platform 
for ideologies that are inconsistent with universal values, 
whether at the so-called Human Rights Council or in our own 
participation in entities such as the U.N. Population Fund, 
which now goes so far as to align itself with abortion 
advocacy, we are as guilty as other nations in leveraging that 
body for controversial norms that are both an affront to human 
dignity and human rights.
    Now with that said, I believe your push and your support of 
the effort to pass the resolution--end the resolution combating 
discrimination and violence--had a very important effect in 
defending religious freedom, and I am grateful for that.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry. Mr. 
Deutch of Florida is recognized.
    Mr. Deutch. Thank you, Madam Chairman. And welcome, 
Ambassador Rice. Ambassador, prior to Richard Goldstone's 
article last weekend, the Human Rights Council had just 
recently adopted a resolution by Richard Falk, Special 
Rapporteur on Palestinian Human Rights--perhaps also known as 
special rapporteur to encourage further anti-Israel bias--
accusing Israel of committing ethnic cleansing.
    In Goldstone's admission, he confirms that the Israeli army 
didn't intentionally fire on civilians in Gaza, but that Hamas 
purposefully and indiscriminately aimed at civilian targets.
    Based on his findings and his statement, I hope that you 
will speak to the Council's ability to seek the 
reconsideration, the revocation, or the retraction of the 
Goldstone report, in large measure because of the opportunity 
it provides to acknowledge that Israel has the right, if not 
the duty, like any other civilized nation, to take action to 
protect its citizens, civilians, who are under an onslaught of 
attacks. And I look forward to your testimony.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Rivera of 
Florida.
    Mr. Rivera. Thank you, Madam Chair. I don't want to 
reiterate my colleagues' concerns that they have raised 
regarding the United Nations Human Rights Council as well, and 
our participation along with other countries that can only be 
called human rights abusers, such as China and Cuba, and to 
understand the justification for why we even participate in 
such a farce such as the U.N. Human Rights Council.
    Also, with respect to one of those human rights abusers, 
Cuba, and the annual vote that occurs at the United Nations 
regarding the embargo, the embargo is U.S. policy. We always 
have certain friends, staunch allies like Israel, that stand 
with us on that vote, but I would like to hear a little bit 
about what are our efforts to make a more multilateral approach 
and bring more support to U.S. policy throughout the region.
    We know that Cuba, for example, is a state sponsor of 
terrorism. We know they are harboring terrorists. We know that 
the Castro regime is harboring fugitives from U.S. justice, 
such as drug traffickers, cop-killers, and embezzlers, and I 
would like to know what our administration's efforts are at the 
United Nations to make the U.S. policy of the embargo more of a 
multilateral support effort in that institution. Thank you, 
Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Rivera. Mr. 
Cicilline. Mr. Keating.
    Mr. Keating. Thank you, Madam Chairman. I would just like 
to reiterate that I hope you can comment on the issue of 
Palestinian unilateralism, which I believe my other colleagues 
have mentioned prior to this as well.
    At that, I will yield back my time.
    Chairman Ros-Lehtinen. Wow. We are not used to that. It is 
like the reform at the U.N., what do we do? What is that about? 
Ms. Buerkle of New York, the vice chair of the Subcommittee on 
Terrorism, Nonproliferation, and Trade.
    Ms. Buerkle. Thank you, Madam Chairman. And thank you, 
Ambassador Rice, for being here this morning. I just want to 
echo the comments of my colleagues and the concerns they have 
talked about.
    Specifically, I look forward to a discussion regarding the 
funding by the United States of America to the U.N., 
particularly with the peacekeeping efforts where audits have 
indicated that there has been fraud and abuse of dollars in the 
peacekeeping efforts.
    And beyond that, I look forward to a discussion about the 
anti-Israel bias that the U.N. tends to exhibit. So I look 
forward to our hearing this morning, and thank you for being 
here. I yield.
    Chairman Ros-Lehtinen. Thank you. Ms. Wilson of Florida.
    Ms. Wilson of Florida. Thank you, Chairman Ros-Lehtinen, 
for this important hearing this morning. First, I offer my 
belated condolences to the Ambassador and her family. The 
Ambassador's father, Emmett Rice, who passed away a little less 
than a month ago, was truly one of the economic pioneers in our 
nation, and his loss will be greatly missed.
    Second, during these fiscally tough times, it is important 
that we have a fair and objective process, filled with 
individuals capable of ensuring that the people's money is 
being effectively and efficiently spent. We want to ensure that 
the law and the intent of the Congress--the laws are being 
followed in the programs that we authorize.
    The American people expect no less.
    Currently, the United Nations is on the ground in 
Afghanistan, Libya, Sudan, the Ivory Coast, among other war-
torn localities. Seven U.N. staffers were beaten, shot and 
killed during the attack on their compound in Afghanistan. The 
U.N., while not perfect, has done much to forward the goals of 
both the U.N. and the United States.
    I thank Ambassador Rice for her hard work in protecting the 
interests of the United States, and I look forward to your 
testimony today.
    Chairman Ros-Lehtinen. Thank you so much. Thanks to all the 
members for excellent opening statements. And now we are so 
pleased to welcome a friend of our committee, Ambassador Susan 
Rice, back to our committee. Ambassador Rice is the U.S. 
Permanent Representative to the United Nations.
    She served in the Clinton administration as Assistant 
Secretary of State for African Affairs from '97 to '01, and in 
senior posts on the National Security Council from '93 to '97. 
Following her service in the State Department, she was a senior 
fellow at the Brookings Institution from '02 to '09.
    Ambassador Rice has also served in the private sector, and 
on numerous boards, and we thank her for agreeing to testify 
today. Madam Ambassador, please proceed, and welcome back.

     STATEMENT OF THE HONORABLE SUSAN RICE, U.S. PERMANENT 
 REPRESENTATIVE TO THE UNITED NATIONS, U.S. DEPARTMENT OF STATE

    Ambassador Rice. Thank you very much. I appreciate the 
opportunity to be here. Representative Berman, members of this 
committee, it is an honor to have the chance to come before the 
committee again today. I thank you, Madam Chairman, for 
including my full statement in the record, which I will 
summarize now.
    Chairman Ros-Lehtinen. Without objection.
    Ambassador Rice. I want to begin by expressing my gratitude 
for the many kind words of sympathy that have been expressed by 
many members of the committee regarding the recent losses that 
the United Nations has suffered in a number of countries of 
late. It has indeed been a very difficult period, and your 
expressions of sympathy will be very appreciated.
    I want to begin this morning by recalling the U.N.'s 
response to the crisis in Libya, which in my estimation further 
reminds us of the value of the United Nations in an age of 21st 
century challenges.
    With U.S. leadership, the Security Council swiftly 
authorized the use of force to save civilians at risk of mass 
slaughter. It established a no-fly zone and imposed strong 
sanctions on the Ghadafi regime. With broad international 
support, we also suspended Libya from the U.N. Human Rights 
Council by consensus, a historic first.
    As we well know, America's resources and influence are by 
no means limitless, and that is why the United Nations is so 
important to our national security. It allows us to share the 
costs and burdens of tackling global problems, rather than 
leaving these problems untended or leaving the world to look to 
the United States alone.
    I therefore ask for this committee's support for the 
President's budget request for contributions to international 
organizations, and to the CIPA accounts, to help us advance 
U.S. national interests.
    Our leadership at the United Nations makes us more secure 
in at least five fundamental ways. First, the U.N. prevents 
conflict and keeps nations from slipping back into war. More 
than 120,000 military police and civilian peacekeepers are now 
deployed in 14 operations worldwide in places such as Haiti, 
Sudan, and Liberia. Just 98 of those individuals are Americans 
in uniform, all serving under U.S. command and control.
    U.N. missions in Iran and Afghanistan are promoting 
stability so that American troops can come home faster. These 
are examples of burden sharing at its best.
    Second, the United Nations helps halt the proliferation of 
nuclear weapons. Over the past 2 years, the United States led 
efforts that imposed the toughest sanctions to date on Iran and 
North Korea.
    Third, the United Nations helps isolate terrorists and 
human rights abusers by sanctioning individuals and companies 
associated with terrorism, atrocities, and cross-border crime.
    Fourth, U.N. humanitarian and development agencies go where 
nobody else will to provide desperately needed assistance. U.N. 
agencies deliver food, water, and medicine to those who need it 
most, from Darfur to Pakistan, and many other places around the 
world.
    Fifth, U.N. political efforts can help promote universal 
values that Americans hold dear, including human rights, 
democracy, and equality, whether it is by spotlighting human 
rights abuses in Iran, North Korea and Burma, or offering 
critical support to interim governments in Egypt and Tunisia as 
they prepare for elections.
    Let me turn now, briefly, to our efforts to reform the 
United Nations and improve its management practice. Our agenda 
focuses on seven priorities. First, U.N. managers must enforce 
greater budget discipline. Secretary General Ban Ki-Moon, as 
was noted, recently instructed senior managers to cut 3 percent 
from current budget levels, the first proposed reduction 
compared to the previous year of spending in 10 years.
    Second, we continue to demand a culture of transparency and 
accountability for resources and results. We aggressively 
promote a strengthened, independent Office of Internal 
Oversight Services, and an improved ethics framework and 
enhanced protection for whistle-blowers.
    Third, we are pushing for a more mobile, meritocratic U.N. 
civilian workforce that incentivizes service in tough field 
assignments, rewards top performers, and removes dead wood.
    Fourth, we are improving protection of civilians by 
combating sexual violence in conflict zones, demanding 
accountability for war crimes, and strengthening U.N. field 
missions.
    Fifth, we are insisting on reasonable, achievable mandates 
for peacekeeping missions. Not a single new U.N. peacekeeping 
operation has been created in the last 2 years. Not a single 
one. And in 2010, for the first time in 6 consecutive years, we 
closed missions and reduced the peacekeeping budget.
    Sixth, we are working to restructure the U.N.'s 
administrative and logistical support systems for peacekeeping 
missions to make them more efficient, cost-effective, and 
responsive to realities in the field.
    Finally, we are pressing the United Nations to finish 
overhauling the way it conducts day-to-day business, including 
upgrading its information technology platforms, procurement 
practices, and accounting procedures.
    But the U.N., we all agree, must do more to live up to its 
founding principles. We have taken the Human Rights Council in 
a better direction, including by creating a new Special 
Rapporteur on Iran.
    But much more needs to be done. The Council must deal with 
human rights emergencies wherever they occur, and its 
membership should reflect those who respect human rights, not 
those who abuse them.
    We also continue to fight for fair and normal treatment, 
every day, for Israel, throughout the United Nations system. 
The tough issues between Israelis and Palestinians can be 
resolved only by direct negotiations between the parties, not 
in New York.
    That is why the United States vetoed a Security Council 
resolution in February that risked hardening both sides' 
positions. We consistently oppose anti-Israel resolutions in 
the Human Rights Council, the General Assembly, and wherever 
they may arise.
    The U.N., we all agree, is far from perfect. But it 
delivers real results for every American by advancing U.S. 
security through genuine burden-sharing. That burden-sharing is 
more important than ever at a time when the threats don't stop 
at our borders, when Americans are hurting and cutting back, 
and when American troops remain in harm's way.
    Madam Chairman, thank you for your willingness to give me 
this opportunity. I am pleased now to answer the committee's 
questions.
    [The prepared statement of Ambassador Rice follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
that excellent testimony. And now I will begin with the 
question and answer period.
    Madam Ambassador, since the U.N. continues to be used to 
propagate anti-Israel bias, it is important for the United 
States to show leadership and stand publicly and unequivocally 
with the Jewish State.
    So accordingly, I respectfully request this of you. Will 
you take this opportunity to publicly pledge that the U.S. will 
join Canada and Israel in not participating in the upcoming 
Durban 3 hate-fest, and that the U.S. will withhold funding 
from it?
    Secondly, that the U.S. will push for the U.N. General 
Assembly to repudiate the Goldstone report, just as it revoked 
the old Zionism is Racism resolution in '91. Or is the U.S. 
going to push for a correction in the record to accurately 
reflect the retraction of Judge Goldstone on his report?
    And lastly, if that resolution or statement or anything 
else is brought to the U.N. that would recognize a Palestinian 
state or upgrade the status of the Palestinian observer 
mission, that the U.S. will do everything it can to oppose and 
stop such measures, and will veto them at the Security Council 
before they get to the General Assembly?
    Ambassador Rice. Thank you, Madam Chairman. Let me take 
those collectively first, and then individually, if I may. 
First of all, as I said in my full testimony for the record, 
and as I will reiterate, the United States every day stands 
firmly and unequivocally in support of our ally and partner, 
Israel, in the United Nations, where, as we all know, it often 
comes under illegitimate and unfair attacks simply for 
existing.
    We do this because it is in our national interest, because 
it accords with our values and principles, and because it is 
manifestly the right thing to do. We have spent a great deal of 
time and effort combating anti-Israel efforts, opposing them, 
vetoing them when necessary, and preventing them from arising 
in the first place.
    We have had a great deal of frustration in some 
circumstances, and success in others. For example, we have 
succeeded in incorporating Israel into a number of like-minded 
groups of countries at the U.N. in New York and Geneva, which 
it has long sought membership to.
    We have supported and seen Israel successfully achieve 
leadership positions in the United Nations, for example co-
leading the Kimberly process. We successfully opposed 
resolutions that arose to condemn Israel in the IAEA and 
elsewhere.
    So this is part of the daily work that my mission does, and 
that I am proud to do every day. Now, coming to your specific 
questions.
    Chairman Ros-Lehtinen. That is Durban 3, Goldstone, and 
Palestine.
    Ambassador Rice. I have them. Thank you. With respect to 
the Durban Conference, as you know, we withdrew from the Durban 
review conference that occurred in Geneva in 2009. We did so 
out of great frustration with the fact that the problems with 
the original Durban conference, as they related to Israel, 
remained unchanged.
    And you know also that this administration and Congress 
stand strongly in support of efforts to oppose racism in all of 
its forms, and that remains very important to the United 
States.
    But as we look at this 10-year commemoration coming up in 
September, we are deeply concerned both by its likely content 
and its timing. And that is why the United States opposed the 
resolution establishing this commemorative conference. That is 
why we have not participated in any active way in the 
discussions or negotiations surrounding the documents that may 
be considered at that conference, and why I don't anticipate 
that our posture will change.
    With respect to Goldstone, the United States has been clear 
from the outset that we believe that report was gravely and 
fundamentally flawed, that it completely unfairly drew 
conclusions about Israel's intentions and conduct. And we never 
saw at the time, nor do we see now, any evidence that Israel 
intentionally committed crimes against civilians, or other 
forms of war crimes intentionally.
    And now, of course, we have seen Judge Goldstone call into 
question many of the fundamental conclusions of his original 
report. We are very interested--as I said yesterday--in first 
of all ensuring that all of the follow-up actions that have 
been contemplated with respect to Goldstone cease and go 
nowhere.
    Secondly, we would frankly--as I said--like to see this 
entire Goldstone proposition disappear. We are consulting 
closely with core friends and partners about the appropriate 
procedural steps that we might take to address both our 
concerns about the original report, and Judge Goldstone's 
recent revelations.
    The tactics that we will choose to do that have not been 
formally decided. There are various options out there, but I 
want to say, Madam Chairman, that the most practical ones 
require further action either by the Human Rights Council or 
the General Assembly, and we know the challenges attending----
    Chairman Ros-Lehtinen. Thank you. And I am sure that other 
members will ask about the Palestinian state recognition. Thank 
you so much. I am so pleased to recognize my friend, the 
ranking member, Mr. Berman of California.
    Mr. Berman. Thank you very much, Madam Chairman. And 
Ambassador Rice, I would like you to--it is obviously a level 
of speculation as to what would happen, but indicate on some of 
the critical missions that you have undertaken with, I think, a 
remarkable amount of success, on what I consider vital national 
security issues, Iran first and foremost.
    If the U.S. were in a position where we were significantly 
in arrears of our treaty obligations, how would your ability to 
facilitate and achieve some of the successes you have been able 
to achieve around sanctions, these efforts to fight 
resolutions, at the IAEA and in other places, that seek to 
discriminate and seek to delegitimize Israel--how would your 
skills be impeded in terms of maximizing the chances of 
achieving the results we want? If you could just sort of lay 
out your thoughts on that particular issue.
    And I would note for this purpose, you were in the 
executive branch of government the last time we were very 
significantly in arrears, under the Helms language that the 
chairman gave some credit to Vice President Biden for. But it 
was a Helms initiative, and I think that was politics.
    What damage did it do there to our standing and our ability 
to do the job of pursuing American interests through diplomatic 
means at the United Nations?
    Ambassador Rice. Thank you, Mr. Berman. There is no 
question that when the United States is in debt to the United 
Nations, when we fail to meet our treaty obligations to pay our 
assessed contributions, that our influence is diminished, our 
standing is injured, and our ability to pursue important 
initiatives that advance U.S. national security and U.S. 
national interests is gravely undermined.
    The dues we pay goes for things that we vote for in the 
Security Council. The bulk of our expenses are for 
peacekeeping. These are missions that we decide to authorize 
and deploy because we think they do things that matter to the 
United States, like halt genocide in Darfur, like help to 
enable a referendum in South Sudan to come about, and the 
creation of a new state--which we look forward to in July--in 
South Sudan. Preventing the flow of refugees and stabilizing 
Haiti. Bringing democracy and security to Cote d'Ivoire. The 
list goes on.
    But these are things that we have authorized and supported 
because they serve our national security interests, because we 
have taken the decision that to do nothing would be intolerable 
and dangerous, and to do something with others sharing the cost 
and the burden of the military operation is much more sensible 
than us contemplating doing it alone. So this is why it is in 
our interest.
    Beyond that, Mr. Berman, when we are not fulfilling our 
obligations, our influence, our leverage, the value of our 
diplomacy is substantially undermined. I do recall in the '90s 
how that was, and I can tell you that the cooperation we have 
managed to achieve to impose tough sanctions on Iran, on North 
Korea, to authorize strong action in Libya and Cote d'Ivoire 
and many other things, would not be possible if we were again 
in a situation of debt.
    Mr. Berman. Let me just use my remaining seconds to throw 
out one proposition. One thing that seems to unify this 
committee, and I am very happy about it, is the focus on the 
efforts, the tremendous efforts, to delegitimize Israel in the 
U.N. and its component bodies.
    Have the Israelis indicated to you that they would hope you 
would embrace a strategy of not participating there or 
withholding dues as a way of helping them to overcome this very 
intentional assault on their standing?
    Ambassador Rice. Absolutely not. On the contrary, we 
partner every day very closely with Israel, and our ability to 
be a leader in strong standing with maximum influence, I 
believe, Israel sees as serving their best interests as well.
    And that is why--that is among the reasons; there are many, 
many reasons--but I think it is important to point out that it 
is not just the Obama administration. It is the Bush 
administration, and all previous administrations, that have 
taken the strong view that it is counter to our interests to 
use withholding of dues as a means of trying to obtain our 
policy objectives. It doesn't work. It is counterproductive, 
and the record shows it.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Berman. Mr. Smith, the Subcommittee on Africa, Global Health, 
and Human Rights chair.
    Mr. Smith. Thank you, Madam Chair. Ambassador Rice, if you 
could just tell us what role you believe U.N. peacekeeping 
operations will play in South Sudan after July 9th? And if you 
could speak to the issue of the abuse in the DR Congo--if that 
has been rectified, how you see that playing out--by U.N. 
peacekeepers?
    Also, years back I held a series of hearings and offered an 
amendment on the whole issue of anti-Semitic language in UNRWA 
textbooks. Has that been fixed? We are the major donor still, 
about $0.5 billion over the last 2 years alone. It seems to me 
that we should have zero tolerance for anything that is either 
anti-Semitic or anti-American, when we are footing the bill for 
those textbooks.
    And finally--and I raise this with increasing alarm, and I 
have raised it since as far back as 1983, and that is the 
barbaric one-child-per-couple policy, with its very heavy 
reliance on forced abortion and forced sterilization.
    As you know, brothers and sisters are illegal in China. 
That has not changed. I recently worked on a case of a woman 
who was being compelled in a major city in China to get an 
abortion after her first child, because she was not allowed a 
second.
    I actually have a picture, because it was a very--and I 
will share it with you privately--a very successful outcome, 
but she is absolutely the exception in the PRC. With 
resoluteness, women are allowed only one child.
    As you know, for 30 years the U.N. Population Fund has 
aided and abetted that barbaric policy. They have heaped praise 
upon it. They have trained the cadres. I know under the Bush 
administration a serious effort was made to find out exactly 
what that training was, and they stonewalled.
    And I am wondering if we have been able--and I would like 
to be a part of that--to find out exactly what is going on with 
regards to the UNFPA's work there.
    Because as Secretary John Negroponte pointed out in 2008, 
when we denied funding to the UNFPA, he pointed out in 
pertinent part, that China's birth limitation program remains 
harshly coercive in law and practice, including coercive 
abortion.
    It is illegal in almost all provinces for a single woman to 
bear a child, so if you are an unwed mother, you are forcibly 
aborted, even if it is the one child permitted to most women in 
their lifetime under the law.
    What was very important in his finding, the State 
Department noted that Chinese law is ``the foundation of its 
coercive policies and practices, and that the UNFPA comports 
with and adheres to Chinese law.''
    So in those counties where the UNFPA is operating, they 
absolutely must follow Chinese law with regard to the one-
child-per-couple policy. And the impact--and I know you know 
this, Ambassador Rice--there is the gender disparity--10 years 
ago, in the State Department country reports on human rights 
practices, it was revealed that upwards of 100,000,000 girls 
are missing in China, as a direct result of gender-cide.
    The targeting of a girl in utero, and the destruction of 
that tiny infant baby girl, simply because she is female--now, 
I see some people in your staff smiling and laughing. You know, 
it galls me to no end, frankly, that we have not raised this 
gender-cide issue--even CEDAW has raised it, not to the 
proportion that it ought to.
    But frankly, it is unconscionable that girls are being 
targeted because of their being girls, and systematically 
eliminated. By 2020, 40,000,000 men will not be able to find 
wives, because they have been eliminated, systematically, year 
in and year out, as a direct result of the one-child-per-couple 
policy.
    So I strongly encourage you, we need to be on the same page 
with this. These are crimes against gender, crimes against 
humanity. And where is the Genocide Convention Panel of 
Experts? Where are others? Where is the Human Rights Council?
    You know, the periodic review punts on this, with regard to 
China. So I would ask you, please, to raise this issue 
aggressively, and take back, if you would, the request that 
they have real transparency with regard to UNFPA. It does not 
exist currently.
    Ambassador Rice. Madam Chair, I am not sure I am going to 
be able to address all of those in the 30 seconds remaining. I 
am going to talk as fast as I know how.
    In post-Sudan, the U.N. is in the process--post-referendum 
Sudan, and the U.N. is in the process of assessing and talking 
to southern authorities about what would be the optimal follow-
on configuration for a U.N. mission. We expect there to be one, 
but we want it to--its composition will depend, in part, on how 
far the two parties get in negotiating some of the remaining 
issues, and what the government itself chooses to ask for.
    Sexual exploitation in the Congo is a subject of gravest 
concern to the United States, to the administration, as well as 
Congress----
    Chairman Ros-Lehtinen. Thank you, Ambassador, and I know 
that this is a serious issue that merits further inquiry. And 
we look forward to getting your response perhaps after the 
hearing.
    Ambassador Rice. Thank you.
    Chairman Ros-Lehtinen. And if not, in written form, Mr. 
Smith.
    Mr. Smith. Thank you.
    Chairman Ros-Lehtinen. Mr. Payne, the ranking member on the 
same committee.
    Mr. Payne. Thank you very much. And I agree with my 
colleague from New Jersey about the policies in China. However, 
I think probably one of the things that has made China as 
strong as it is is because of the embrace that U.S. businessmen 
have made to China, and we have a policy where China has been 
able to make itself very strong, and have its current 
government stronger by virtue of the largesse of what they are 
able to get out of our business community.
    So I think that when we look at issues, maybe the burden is 
not necessarily the United Nations' but the behavior of our 
U.S. businesspeople, where this doesn't become an issues.
    Let me just say that I believe that participating in issues 
like the Human Rights Council--and I also think that if we were 
at Durban, we could actually argue our points at the IPU, which 
is International Parliamentary Union, a group that the United 
States removed itself from maybe 10 or 15 years ago.
    Israel is still a member. They say why don't we come back 
to assist them, but we refuse to come back primarily because of 
the issues. Which to me, there is no voice within the IPU to 
assist Israel in its argument, as they stay there by 
themselves, without the support of the U.S.
    Let me just quickly, once again, commend the assistance 
that you have done in Sudan with the 90-plus percent turnout of 
the election, the 96 or -7 percent of people who say they 
should remove--but one, I would like to know what we can do the 
pressure the results for Abyei.
    If Abyei remains unresolved, I believe war will happen in 
Sudan between the north and the south, in the future. It will 
be similar to the issue in Pakistan and India that has not been 
resolved, and still continues on.
    I wonder if you could comment on Somalia, and the U.N.'s 
assistance to the AU with their peacekeeping. Also, in Cote 
d'Ivoire, where the U.N.--and I commend them for their 
resolutions--is there any more action that the U.N. will take 
for Gbagbo to step down in that area.
    And finally, with the Western Sahara--you know, Morocco 
still continues to illegally occupy Western Sahara. Is the U.N. 
doing anything to deal with that situation?
    Ambassador Rice. Thank you, Mr. Payne. Let me begin with 
southern Sudan, and the question of Abyei. As you know, the 
United States has been very active in trying not only, 
originally, to broker the CPA, but to ensure its full 
implementation, and in the run-up to the referendum, and in 
trying to resolve all of the outstanding post-referendum 
issues.
    And Abyei is not even a post-referendum issue. It should 
have been, as you know, dealt with in its own referendum 
simultaneous to the southern referendum.
    Ambassador Princeton Lyman, who was recently named by 
President Obama as his new special envoy, is out in the region 
as we speak. He is working actively with both parties, as well 
as with the AU high-level panel, former South African President 
Mbeki and others, to try to push for resolution of Abyei.
    We fully understand its significance as a critical issue 
that needs to be resolved. As you also know, it is one of the 
most difficult ones, and thus far we have not seen the parties 
exhibit sufficient flexibility to resolve it swiftly.
    There are a number of other important post-referendum 
issues that are also still to be negotiated: Resource-sharing, 
borders, citizenship, and the like, all of which are high on 
our agenda.
    Cote d'Ivoire, if I might for a second, has been raised by 
others as well. The U.N. is playing a very active role, and has 
been, first of all in making clear who won the election, that 
President Ouattara was legitimately elected, and that Gbagbo 
must step down, and do so--should have done so quite some time 
ago.
    We have imposed additional sanctions on Gbagbo and his 
cronies, and we have beefed up the U.N. peacekeeping mission, 
which is now actively taking on its peace enforcement mission 
to protect civilians, to take out heavy weapons, and to 
facilitate the emergence of a representative government there.
    The U.N. has done--is taking a lot of casualties. It is 
under attack, but it is doing, with the support of the French, 
very important work to try to protect civilians, take out the 
heavy weapons. And we hope that the bloody standoff which is 
persisting will soon end.
    Madam Chairwoman, I don't know if my----
    Chairman Ros-Lehtinen. So sorry. I know these are all 
serious topics, and I sincerely apologize to the members for 
the time limitation, but we have so many folks who want to ask 
questions. I know that each one merits a fuller discussion. Mr. 
Rohrabacher, Subcommittee on Oversight and Investigations 
chairman.
    Mr. Rohrabacher. Thank you very much, Madam Chairman, and 
thank you Ambassador Rice. Let me just note that when we are 
spending <greek-l>1,500,000,000,000 deg.$1.5 trillion more than 
we are taking in, and we realize that this is heading us toward 
a financial catastrophe of historic proportions, as the 
interest that we have to pay on that debt goes up, and as 
perhaps the interests rates go up as inflation cuts into our 
people's economic reality, asking--right now, the amount of 
money that we are being asked to spend for the United Nations 
is <greek-l>6,300,000,000 deg.$6.3 billion. Is that correct? Is 
that a correct figure of what we are being asked for?
    Ambassador Rice. No. Thank you for your important question, 
and we need to have clarity on, indeed, what is the budget 
request.
    Mr. Rohrabacher. What are we actually being asked to give 
to the United Nations from the United States?
    Ambassador Rice. We are asking for $1.619 
billion<greek-l>1,619,000,000 deg. for the regular budget, and 
for all of the U.N.----
    Mr. Rohrabacher. Yes.
    Ambassador Rice. As well as other international 
organizations, not all United Nations. The regular budget 
request, as a subset of that, is $568 million. And for 
peacekeeping for Fiscal '12, we are requesting $1.9 
billion<greek-l>1,900,000,000 dollars deg., and to apply 
another $225 million<greek-l>,000,000 deg. in existing credits 
in order to meet our assessed contributions, which we estimate 
will be $2.145 billion<greek-l>2,145,000,000. deg.
    Mr. Rohrabacher. And what does that all add up to?
    Ambassador Rice. Well, I can get you that in a second. Let 
me calculate that. But it is 1.619 plus 2.145.
    Mr. Rohrabacher. Let me tell you, we are talking about real 
money here.
    Ambassador Rice. Very much so, sir.
    Mr. Rohrabacher. And let me just say that providing this 
type of money to an organization that uses Israel as a punching 
bag is something that is not acceptable. And the fact is, the 
people in the United Nations who are using Israel as a punching 
bag are people who they themselves are guilty of major crimes 
against humanity, whether it is China and the gender-cide that 
we heard about, or whether it is other countries that murder 
their own people and repress their own people.
    Let me ask you this, going to the question of my position 
on claptrap.
    Chairman Ros-Lehtinen. Mr. Connolly, are you ready?
    Mr. Rohrabacher. All right. Do you believe that the U.N. 
resolutions limit us to what we can do in our own interests, as 
to what our Government can do in our own interests?
    Ambassador Rice. No. Absolutely not.
    Mr. Rohrabacher. Okay. So U.N. resolutions do not limit the 
United States as to what we can do in our own interest.
    Ambassador Rice. No. First of all, there is no such thing 
as a U.N. resolution that the United States hasn't voted for. 
First point.
    Mr. Rohrabacher. Does not China have a veto power in the 
Security Council?
    Ambassador Rice. There is no resolution that can pass the 
Security Council without U.S. support.
    Mr. Rohrabacher. Do we--inform me, is a veto and a position 
of us not voting, is that the same?
    Ambassador Rice. No.
    Mr. Rohrabacher. So a resolution can actually go forward, 
unless we veto it. If we are refraining, a resolution can still 
go through.
    Ambassador Rice. We have three choices, sir, when we vote.
    Mr. Rohrabacher. Okay.
    Ambassador Rice. We can vote yes.
    Mr. Rohrabacher. Yes.
    Ambassador Rice. We can abstain, which we almost never do.
    Mr. Rohrabacher. Okay.
    Ambassador Rice. Or we can vote no. And when we vote no, 
that is the equivalent of a veto.
    Mr. Rohrabacher. Right, so----
    Ambassador Rice. So nothing can be adopted by the Security 
Council without the U.S. assent.
    Mr. Rohrabacher. Without the U.S. not abstaining, at least.
    Ambassador Rice. That is a form of assent, ultimately. 
Because we have allowed it to get through.
    Mr. Rohrabacher. Well, we could talk about that in greater 
depth. But let me just ask about the money. How much has the 
budget of the United Nations grown over the last 10 years?
    Ambassador Rice. Let me answer your prior question. You 
asked for the sum total, 3,539,000,000 is the sum of our 
request for the CIO account, contributions to international 
organizations, which includes the regular budget of the United 
Nations, which we pay 22 percent of, and 1.920 for 
peacekeeping.
    I want to underscore that the CIO account includes a number 
of international organizations, like the OAS, that are not U.N. 
entities.
    Mr. Rohrabacher. So what is the bottom line on it? I mean, 
is that----
    Ambassador Rice. I am giving you a number of--just to keep 
it simple here, 3.539 is the sum total of what the 
administration is requesting in Fiscal 2012 for CIO and 
peacekeeping accounts.
    Mr. Rohrabacher. And for all U.N. activities, we are 
talking about 3.5?
    Ambassador Rice. That is what I just said. That is actually 
more than--that includes some other international organization 
activities, but----
    Mr. Rohrabacher. All right.
    Chairman Ros-Lehtinen. Thank you----
    Mr. Rohrabacher. One last note. I still have, I think, 5 
seconds.
    Chairman Ros-Lehtinen. Sorry, you are over five. But thank 
you.
    Mr. Rohrabacher. Oh, I am sorry. Pardon me. But Camp Ashraf 
is something that you need to tell your boss about, that we are 
concerned about here.
    Ambassador Rice. We are very aware. Thank you.
    Chairman Ros-Lehtinen. Thank you. Mr. Sherman, the ranking 
member on the Subcommittee on Terrorism, Nonproliferation, and 
Trade, is recognized.
    Mr. Sherman. Ambassador, I will ask you to respond for the 
record to the accounting issue I brought up in my opening 
statement. I hope that the administration will use full-cost 
accounting, which is the legitimate system of accounting, and 
live with the political disadvantage of truthfully telling the 
American people how expensive it is for us to provide military 
assets to these U.N.-authorized activities.
    Because then you will gain for our country the diplomatic 
advantage of telling the world the enormous burden that the 
American taxpayer absorbs in order to make available to such 
actions as Libya our unique military capacity.
    As to Libya, an issue has arisen as to what the President 
has the power to do in the absence of a statutory authorization 
passed by both houses of Congress. And my question for you is, 
has the President's legal authority expanded? Does he have more 
permissible options because our actions in Libya are pursuant 
to a United Nations resolution? Does the U.N. resolution have 
any effect on Presidential power?
    Ambassador Rice. Let me begin with your first question, if 
I might. I think there are some important clarifications that 
need to be made. There are U.N. operations, which are U.N. 
blue-helmeted or field missions, for which we are requesting 
funding in the CIPA account. And these are the 14 missions that 
I described in places like Haiti and----
    Mr. Sherman. Ambassador, I have so many questions. I would 
hope that you would respond to the accounting question for the 
record.
    Ambassador Rice. I am trying my best to respond, but I have 
to do it with clarity, so that we are not allowing----
    Mr. Sherman. I fully understand that there are the blue-
helmeted operations, and then there is the----
    Ambassador Rice. But when we talk about U.N. missions----
    Mr. Sherman. Yes, I just think of it as broader.
    Ambassador Rice. Then there are missions that the Security 
Council might bless or authorize that we do in our own national 
interest. Those would include Afghanistan and Iraq, and Libya 
now.
    Mr. Sherman. I regard those as costs consistent with the 
U.N., but I think----
    Ambassador Rice. Those aren't U.N. operations. Those are 
things where we----
    Mr. Sherman. Please respond to my Libya question.
    Ambassador Rice. I am trying to. Now, the Libya mission is 
not one that falls under U.N. accounting, or U.N. budgets. It 
is something that we are undertaking in a national capacity, in 
a coalition----
    Mr. Sherman. Can you address my Libya question, as to the 
powers of the President?
    Ambassador Rice. As to the powers of the President, Mr. 
Sherman, of course the powers of the President are what they 
are as spelled out in the Constitution, and they are neither 
enhanced or diminished by U.N. Security Council resolutions.
    Mr. Sherman. So you are not claiming that the U.N. 
Participation Act somehow expands the power of the President to 
act with regard to Libya?
    Ambassador Rice. I am not.
    Mr. Sherman. Okay. What is the administration's position on 
Palestinian attempts, or at least discussion of a unilateral 
declaration of statehood? Will the United States work actively 
to defeat this attempt in the General Assembly, should it 
arise? What has the administration done so far? What are you 
planning to do?
    Ambassador Rice. Thank you. I appreciate that. Let me 
explain again, if I can, the process here. For a new state to 
gain membership of the United Nations, two things have to 
happen. It has to be recommended by the Security Council, where 
we have a veto. And then it must be agreed by two thirds of the 
General Assembly.
    If that issue were to arise, while I obviously would not 
want to address definitively a hypothetical, I think I could 
say with some high degree of confidence that the establishment 
that way of a state, prior to the final status issues being 
resolved in direct negotiations, would run counter to long-
standing U.S. policy.
    So there is not a risk of a Palestinian state being 
included in the United Nations as a member state without the 
U.S. agreeing to that, okay? Now, what we could face separately 
is the General Assembly adopting a political declaration that 
doesn't have the weight of international law, but would have, 
perhaps, some other form of weight, political or symbolic.
    That they could do without creating a state formally, 
without creating a U.N. member state. And that would be a 
political declaration of the sort that could come before the 
General Assembly, and where it is fair to suspect that we might 
not be in the majority.
    Chairman Ros-Lehtinen. Thank you, Madam Ambassador, and 
thank you, Mr. Sherman. I am going to recognize Mr. Chabot, the 
chairman of the Subcommittee on the Middle East and South Asia, 
for his 5 minutes. And then we have three votes, and we will 
return. Mr. Chabot?
    Mr. Chabot. Thank you, Madam Chair. In my opening 
statement, I only had 1 minute. Now I have five, so I would 
like to return to the topic of the proposed--the statement 
condemning Israel that I mentioned before.
    As I previously stated, many of us in Congress were 
disappointed by the administration's handling of the recent 
draft resolution at the U.N. Security Council that selectively 
criticized, condemned Israel.
    The administration said over and over again, including to 
this committee, that the Security Council was wrong. It was the 
wrong place to address final status issues. But you repeatedly 
refused to publicly commit in advance to veto that resolution, 
leaving Israel essentially twisting in the wind.
    Then we found out, not directly from the administration, 
but from the press, that you had reversed your position, and 
were trying to get a Security Council statement criticizing 
Israel, instead of a resolution.
    And then, when the statement was rejected and the 
resolution came up for a vote, while you did veto it, you 
issued a really astonishing Explanation of Vote that not only 
did not support Israel, but actually joined in the criticism.
    Many of us were extremely disappointed that the 
administration thought this appropriate, let alone acceptable. 
As I previously stated, in 529 short words, the administration 
undid all the good that had been done by its veto.
    In criticizing Israel, you used such language as ``reject 
in the strongest terms,'' ``corroded hopes for peace and 
stability in the region,'' ``devastates trust,'' ``folly and 
illegitimacy.'' These were the words that you read before the 
world stage. ``We therefore,'' you closed, ``regrettably have 
opposed this draft resolution.''
    Many of us read this as, ``We agree with the demonizing, 
condemnation, and vilifying, but we regrettably have to vote 
against it. We wanted to support the resolution, and we agree 
with the substance, but we were regrettably--we have to vote 
against it.''
    With those words, Ambassador Rice, we essentially threw our 
friend and ally, Israel, to the wolves. The United States, I 
think, has to look at this very closely. The United Nations is 
a deeply flawed body, and I am disappointed to say that on 
February 18th, we added to those flaws instead of being a force 
for good.
    As a strong defender of our ally, Israel, I want to make 
clear that I reject in the strongest terms this 
administration's criticism of Israel. It corrodes hopes for 
peace and stability in the region, and it devastates trust. I 
therefore, regrettably, have to oppose the folly and 
illegitimacy of that statement.
    Perhaps you can clarify for me, what was the administration 
hoping to accomplish with your anti-Israel statement? Would you 
want the U.S. to be treated this way by our allies? How can our 
calls to end the demonizing of Israel be taken seriously when 
this administration refuses to speak out at a particularly 
critical time, when it really matters?
    Ambassador Rice. Madam Chairman, this is such an important 
issue that I would like to have the opportunity to respond in 
full. And if you would be a little generous with the time 
constraints, I would appreciate it.
    I have to say, sir, with all due respect, I reject your 
characterization of that statement. Let me explain the 
following. First of all, the veto itself, the first of this 
administration, sent a very clear message. And our statement 
was clear about our view of the decision to bring the 
resolution forward, which we opposed.
    The statement laid out long-standing U.S. policy. It said 
we are committed to a comprehensive and lasting Arab-Israeli 
peace. It said we are focused on the goal of a two-state 
solution. It said the only way to achieve that peace and 
security is through direct negotiations between the parties.
    And it said that the draft resolution under discussion 
risked hardening the positions of both sides, encouraging the 
parties to stay out of negotiations, and to come back to the 
Council if they hit impasses in the future.
    The statement also noted long-standing U.S. policy, that we 
have opposed unilateral steps by either party that could 
undermine trust or prejudge any final status issues. Settlement 
activity falls into that category, and the Explanation of Vote 
restated long-standing U.S. policy of six prior consecutive 
administrations, which has been consistent.
    It was President Bush, in April 2002, who said ``Israeli 
settlement activity in occupied territories must stop.'' In 
2005, Secretary Rice said ``U.S. policy is clear: The expansion 
of settlements ought to stop, settlement activity ought to 
stop. We are particularly concerned about any kind of activity 
that would prejudge the outcome of a final status agreement.''
    The EOV also stated that the only way to reach a two-state 
solution is through direct negotiations, and said it was unwise 
for the Council to attempt to resolve core issues that divide 
Israelis and Palestinians, and that every potential action must 
be measured against one overriding standard: Will it move the 
parties closer to the agreement?
    So that was what my statement said, in sum. I think you 
need to read it in its entirety. It reflects long-standing 
American policy of successive administrations. We stood 
strongly against the resolution. We vetoed it. And if there is 
any ambiguity in a veto, I don't know what it is.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot. I stand by my statement. I think that the 
administration----
    Chairman Ros-Lehtinen. And I regrettably have to say I 
reject this, but it has to come to an end. So we will come 
right back. We have 8 minutes to vote, and we will be back. So 
the committee is temporarily in recess.
    [Whereupon, at 11:30 a.m., the committee recessed, to 
reconvene at 12:12 p.m., the same day.]
    Chairman Ros-Lehtinen. The committee is back in session, 
and as soon as Ambassador Rice returns, I will recognize 
Congressman Burton for his 5 minutes of questioning.
    I am informed that Ambassador Rice has a prior commitment 
at the White House, and so will need to leave at 12:45. I will 
be merciless with my gavel. I remind members that they can 
leave--they can submit questions for the record to the 
Ambassador. Just get them to the committee within the next 5 
days.
    Thank you, Madam Ambassador. It is always great, I say, to 
be interrupted by democracy. Those bells, I hope that in my 
native homeland of Cuba we get to be interrupted by democracy 
soon.
    And with that, Madam Ambassador, I will turn to Mr. Burton 
of Indiana for 5 minutes.
    Mr. Burton. Thank you, Madam Speaker, I really appreciate 
you yielding to me. Ambassador, I heard what you said. I would 
like to--I mean, obviously you have different information than 
we have.
    But I have here in this vote all the money that went to the 
U.N., and it was $6.347 trillion<greek-l>6,347,000,000 
dollars deg.. Now, I don't know where you got your figures, but 
if you need this I will be glad to give it to you.
    The second thing I would like to say before I ask you a 
question is, when I heard my colleague, who is chairman of the 
Middle East Subcommittee, read your statement to the United 
Nations regarding the veto which you used, it really bothered 
me.
    I mean, you know I have heard about damning with faint 
praise, but you went way beyond the pale. It says, ``While we 
agree with our fellow Council Members, and indeed the wider 
world, about the folly and illegitimacy of continued Israeli 
settlement activity, we think otherwise,'' and it goes on, and 
on, and on.
    See, you give our ally, the only real ally we have in the 
Middle East, a slap in the face. And I just can't understand 
that. You don't say anything in here about the rocket fire into 
Israel. You talk about the settlements, you don't talk about 
the 10 months that Benjamin Netanyahu did not move on 
settlements because he was waiting to discuss with the 
Palestinians a solution to the problem.
    All you did was criticize Israel. I mean--well, I have it 
right here. Here is your statement. And you can say--Madam, I 
will yield to you in a minute. You can say anything that you 
want, but facts are facts, and your statement is right here.
    And anybody that reads what you said or hears what you said 
is saying, ``We would like to really put it to Israel, because 
they are going on with the settlements, but we can't, or we 
won't right now, because we don't think this is the proper 
venue.''
    And your statement is just really unacceptable, not just to 
Republicans, but to Democrats as well. I mean, there was 
criticism from across the spectrum in the Congress for the 
things that were said at the U.N. regarding this.
    There is no question that the settlements are an issue, and 
the Israeli Government has taken steps to deal with the problem 
for 10 months. You don't mention that in your statement. Why 
didn't you mention that? I don't understand. You didn't mention 
that, but you sure criticized Israel for going on with it.
    While Israel stopped for 10 months and said, ``Okay, we 
will negotiate with you, and we will suspend building in the 
settlement area,'' no mention of that. No mention of the rocket 
fire. No mention of the civilians that are put in danger by 
Hezbollah and by Hamas.
    And I just don't understand that. You know, when the 
administration says they are supporting Israel and they wait 
till the last minute to create doubt in everybody's mind on 
whether or not they are going to veto that Security Council 
resolution, it bothers us.
    The administration should have come out very quickly and 
said, ``We support Israel. We want this solution. We want there 
to be a solution. We would like to see the settlements stop, 
but that can't be done until there is a reasonable expectation 
that there is going to be an agreement between the Palestinians 
and the Israelis.''
    That should be the criteria. Not blaming Israel, beating 
them over the head on the settlements, not mentioning the 
rocket fire endangering civilians. I just don't get it. So 
maybe you can explain, in the minute that we have left, how you 
support Israel so much, and how you are with us, as far as the 
Congress is concerned, in supporting Israel.
    Just let us know, because your statement sure as heck 
didn't indicate that at all.
    Ambassador Rice. I object to your mischaracterization----
    Mr. Burton. Well, I object to your statement at the U.N.
    Chairman Ros-Lehtinen. Mr. Burton.
    Ambassador Rice. I object----
    Chairman Ros-Lehtinen. Madam Ambassador, if you could just 
hold the clock a second--if you could push the button on your 
microphone? Thank you.
    Ambassador Rice. I object strenuously to your 
mischaracterization----
    Chairman Ros-Lehtinen. I am sorry, we are having technical 
problems. They are working on it. I apologize.
    Ambassador Rice [continuing]. Of my statement, and I object 
even more strenuously to your suggestion that this 
administration and our Government is in any way lacking in its 
support for Israel.
    We have the strongest, most deep military, security, and 
intelligence cooperation that this country has ever had under 
this administration. Every day, I and my colleagues stand up in 
support of our interests and Israel's interests in the United 
Nations, and we have made important progress in that regard.
    From the start of this administration, from the very second 
day, we have made it a top priority trying to broker a lasting 
peace between Israel and the Palestinians, and a two-state 
solution.
    The issue on the table was a resolution on settlements. 
President Obama instructed me to veto that resolution, and I 
did so. My Explanation of Vote explained why we vetoed it. You 
are welcome to insert it into the record, or I can.
    Mr. Burton. I will.
    Ambassador Rice. And it elaborated the long-standing U.S. 
policy of six consecutive administrations, which is that 
settlement activity is illegitimate.
    But it said a lot more than that. It spoke about our 
commitment to a two-state solution. It spoke about our 
opposition to resolving or attempting to address or resolve 
issues that can only be resolved through negotiations, in the 
context of a resolution.
    That is why we vetoed it, and that is why we have made 
clear that for this, or any subsequent effort to bring any kind 
of final status issue before the Security Council, that is 
something that we have, and we will, consistently opposed.
    Chairman Ros-Lehtinen. Thank you. Mr. Burton?
    Mr. Burton. Madam Speaker, I would like to ask for 
unanimous consent to include the entire statement of the 
Ambassador, and also the cost to the U.N.
    Chairman Ros-Lehtinen. That might be limited to size 
limitations, but we will look into that. But this will be made 
part of the record.
    Ambassador Rice. Madam Chairman----
    Chairman Ros-Lehtinen. And I sincerely apologize for these 
technical difficulties. They are trying to work this out. And 
Mr. Engel, I apologize. You are recognized. I am sorry about 
the microphones not working.
    Mr. Engel. These don't work either? No. Okay. Madam 
Ambassador, I will try to be loud. First of all, again I want 
to personally thank you for the tough job you are doing. It's 
not easy to defend some of the practices of the United Nations.
    You can understand, I am sure, why so many people on both 
sides of the aisle are frustrated, and why we think that the 
United Nations needs to be seriously revamped. You take the 
Human Rights Council, 42 of 65 country-specific resolutions are 
anti-Israel.
    And as has been said by many of my colleagues, some of the 
worst human rights abusers in the world sit on that Human 
Rights Council. I am wondering if you could tell us two things.
    Number one, the Goldstone report was rejected on the House 
Floor by this body right after it was passed in the U.N. And we 
rejected it because we said that Israel--it is almost a blood 
libel, as Shimon Peres said when they accused Israel of 
targeting civilians.
    But yet we know that Hamas targets civilians. In fact, just 
this morning, the rockets from Gaza hit a school bus, injuring 
several children, I understand. So we know that Hamas 
deliberately targets civilians.
    And therefore, Israel has undergone a whole investigation, 
and has come up with the fact that Israel did not target 
civilians. And that is why Judge Goldstone has repudiated his 
report.
    What can we do to make sure that the United Nations 
repudiates the report? Because there are some in the United 
Nations that want to go forward with the original Goldstone 
report as if it were truth, and we now know it isn't.
    And secondly, the unilateral declaration of a Palestinian 
state, which I know you ran through the procedure before, that 
we can veto that. And I hope that we will. And if the U.N. 
General Assembly passes it, it may be a political statement but 
it has no real effect.
    I think that this unilateral recognition impedes a peace 
agreement, because it tells the Palestinians that they need not 
sit down and negotiate, that somehow or other they will get 
their state by refusing to negotiate.
    Israel, or any country, cannot be put in the position of 
preconditions to even sitting down and talking. These are very 
serious issues that will be resolved in final status talks, but 
not as a precondition.
    So I just wonder if you could just tell us how we can try 
to ensure that Goldstone is repealed, as the infamous Zionism 
is Racism resolution was repealed several years ago. And what 
is the administration doing to combat this terrible anti-Israel 
bias?
    Because what you hear, the frustration here is that people 
say, ``Well, why should we continue to fund the United Nations 
when time and time again it comes out against what we think is 
in the best interests of the United States and our ally, 
Israel?''
    And I know your arguments, which have a lot of credence, in 
my opinion, that we need to stay and fight. But I am sure you 
appreciate how frustrating it gets when we pay the lion's share 
of things, and then we think we are kind of spit in the face, 
and our ally, Israel, is spit in the face.
    So I have raised a bunch of things. If you can comment on 
any or all of them, I would appreciate it.
    Ambassador Rice. Thank you very much, Mr. Engel. And I 
appreciate the spirit of your questions. As I said earlier, we 
absolutely have been unequivocal in our condemnation of the 
substance and conclusions of the Goldstone report, which we 
have been very clear on from the outset.
    We are, as I mentioned earlier, in the process of talking 
to the closest partners on this about how best, in light of 
both the subsequent actions that were already in different U.N. 
bodies as a result of Goldstone and Judge Goldstone's own op-ed 
in the Washington Post, that we might accelerate our efforts to 
just put this entire sad episode to bed.
    And our aim is twofold. One is to prevent follow-up action 
in the GA, in the Security Council, any referrals to other 
bodies, from materializing. And secondly, we share your 
interests in trying to clear the record. Whether that can be 
done through repudiation--that would require a new resolution 
of both the Human Rights Council and the General Assembly--or 
whether there are other procedural mechanisms that we can 
employ.
    But the aim is to accomplish that, and we are trying to 
consult with partners who have a direct stake in this as to how 
best to accomplish these goals.
    Chairman Ros-Lehtinen. Thank you, Madam Ambassador. And 
thank you, Mr. Engel.
    Mr. Engel. Madam Chair, I just want to take 3 seconds to 
say that I also hope we can get Israel removed from the 
permanent agenda of the U.N. Human Rights Council.
    Chairman Ros-Lehtinen. Thank you very much. And we welcome 
Congresswoman Terri Sewell of Alabama. Always welcome to our 
committee. Ms. Schmidt of Ohio is recognized.
    Ms. Schmidt. Thank you, and I am going to move down so that 
we can hear each other more clearly. I have three questions for 
you, two concerning the Secretary General and the third 
regarding funding.
    The first is, Secretary General Ban Ki-Moon appointed a 
panel of experts to advise him and make recommendations to him 
on the issues of accountability with regard to any alleged 
violations of international human rights and the humanitarian 
law during the final stages of the conflict in Sri Lanka. The 
panel has submitted its report to the Secretary General. Will 
the United States push the United Nations to publish this 
report?
    My second question, again regarding the U.N. The Secretary 
General has violated the rules and regulations of the U.N. by 
appointing as his Special Envoy for Libya an official from the 
Government of Jordan, who both maintains outside business 
interests and his fee and salary as a senator. This is in 
violation of the U.N.'s own rules that U.N. officials may 
receive income from outside sources. Is the U.S. aware of this 
violation, and does it agree with critics that the Secretary 
General should not be violating the rules of the organization?
    And my final question is, can you explain to me why the 
United States is paying 100 percent of the security upgrade 
costs at the United Nations headquarters in New York?
    Ambassador Rice. Thank you, Mrs. Schmidt. Let me begin with 
your last question about security upgrades. First of all, with 
regard to the U.N. building and its renovation, we paid 22 
percent--that is our regular budget assessed share--of the 
costs of the overall renovation.
    I think it is important to note that Americans, American 
contractors, have received the lion's share of all of the 
contracts that have been let as a result of that renovation, 
such that if you do the math we are--for every dollar we have 
spent, there are $4 coming back into the United States, into 
our economy.
    The second point is security upgrades. The City of New 
York, and the New York Police Department, recommended and 
indeed insisted that in the course of the renovation, given the 
terrorist threat that faces the United Nations' headquarters 
building, and given its geographical location over the F.D.R. 
Freeway and right up on First Avenue, that there be additional 
security upgrades above and beyond what was envisioned when the 
original capital master plan was implemented.
    The estimated cost of that was $100 
million<greek-l>,000,000 dollars deg.. The State Department and 
administration, in conjunction with New York authorities, the 
City of New York as well as the New York Police Department, 
made the judgment that it was in our interests both to get 
those security upgrades done and done in a timely fashion, so 
that the cost overrides were not excessive down the road.
    It is American citizens who are most affected by the 
security of the U.N. building, both in terms of 40 percent of 
those in and out of the building every day are Americans, but 
also it is Americans driving under the building, walking by it, 
who will be at greatest risk. So that is why we made the 
decision to invest in our own security and make those upgrades.
    With respect to the panel of experts, that report is just 
coming forward. We look forward to it, and we think that it 
would be beneficial if it were available publicly.
    Ms. Schmidt. So will we push to have it published?
    Ambassador Rice. I would like to read it before I make that 
judgment, but in general, yes. And with respect to Mr. Khatib, 
the Secretary General's Special Envoy for Libya, just 
appointed. Very distinguished, very effective person who on 
short notice took on a very important role. I had the 
opportunity to meet with him this week as he briefed the 
Security Council.
    He is an excellent selection of special representative. He 
is in the process of working out with the Secretary General and 
the Secretariat the circumstances of his employment and 
renumeration.
    It happened very quickly in response to the Security 
Council resolution that he was appointed, and he has been out 
in the field now twice to Libya in the short time that has 
elapsed since then. And we look forward to his employment 
circumstances being implemented in a fashion consistent with 
rules and regulations.
    Ms. Schmidt. Thank you. And finally, just my personal view. 
Israel is the best friend we have in the world, and we have to 
make sure that the U.N. doesn't continue to use Israel as a 
bully pulpit for its own agenda.
    Ambassador Rice. I couldn't agree more.
    Ms. Schmidt. We need to make sure that Israel's interests 
are protected, because when their interests are protected, our 
interests are protected.
    Ambassador Rice. I couldn't agree more. And I think there 
is an important distinction here that rarely gets made. There 
is the U.N., the institution that sends missions out into the 
field, that feeds the hungry, that inoculates children against 
disease.
    And then there are the 192 member states, who act and speak 
and vote in their own interests, that is often not our 
interest.
    Chairman Ros-Lehtinen. Thank you. That is an important 
distinction. Thank you, Madam Ambassador. Thank you, Ms. 
Schmidt. Mr. Meeks, the ranking member on the Subcommittee on 
Europe and Eurasia, is recognized.
    Mr. Meeks. Thank you, Madam Chair. Again, Madam Ambassador, 
I want to thank you for the great work that you have been doing 
representing our country at the United Nations.
    And I just also want to continue to thank you for your 
work, that it is important that we sit and be engaged with the 
rest of the world. And that is really for our own security. 
Because truthfully, if we acted unilaterally, and did not have 
the allies that we have, many of the nations that are sitting 
in the U.N. and other places--hooray.
    Chairman Ros-Lehtinen. Eureka.
    Mr. Meeks. We have the microphone again.
    Chairman Ros-Lehtinen. The question just brought out the 
juice.
    Mr. Meeks. So it is important, I think, that we don't have 
to go along with a kind of gunslinging-type attitude, that we 
are working closely.
    Because when we ask individuals to come with us to Iraq, or 
Afghanistan, or other places, or to fight with us against 
terrorism, where we need to work with one another to combat 
terrorism, and to make sure--we need many of these same allies, 
whom some would say that we just ignore. And I don't know how 
we ignore them, when we will need them to help us, and then 
when they need some help we don't help them.
    That being said, and I think you touched on this earlier. I 
think it is no secret that the previous administration, the 
Bush administration, had at times rocky relationships with the 
U.N. But they never proposed withholding a significant amount 
of dues to the U.N.
    And I know that you were not in that position during that 
administration, but you started to touch on it. Could you just 
tell us why even the Bush administration did not withhold a 
substantial amount of money, dues, to the U.N.? What is the 
significance of that?
    Ambassador Rice. Thank you, Mr. Meeks. I think it was 
interesting that you had former Ambassador Mark Wallace testify 
recently before this committee. And he explained that, in his 
judgment and the judgment of the previous administration which 
he served, it has not been wise, not judged wise or beneficial, 
to use withholding as a tactic to implement change.
    And he was the author, to his credit, of some energetic 
reform initiatives that we have sustained and augmented. The 
reason it isn't wise is because it doesn't work. It has been 
tried in the past, and as Mr. Berman said earlier, it resulted 
only in our isolation and our loss of a crucial seat on the 
Advisory Committee on Administrative and Budgetary Questions, 
which is the body where we get to scrub the budget and ensure 
that we are not asked to pay for things that we think are 
unworthy.
    It is also not the vehicle to achieve reform. We have 
achieved the greatest progress on reform under the previous 
administration and this administration, when we have worked to 
and been able to remain current on our assessed contributions.
    Mr. Meeks. Are there any consequences to not paying our 
assessed dues?
    Ambassador Rice. First of all, it violates our treaty 
obligations. Secondly, if we are in arrears over a period of 
time, we can lose our vote in the General Assembly.
    Mr. Meeks. And some members have proposed shifting our 
contributions to the U.N. on a purely voluntary basis. Can you 
tell us, without assessed contributions, how do we fund 
unpopular or less than compelling activities that the U.N. must 
undertake? Could you talk about that briefly?
    Ambassador Rice. Voluntary contributions can work to a 
certain extent in field operations. It has worked for UNICEF 
and WFP, as the chairwoman noted in her statement. It doesn't 
work when you are talking about peacekeeping operations, the 
administrative responsibilities that have to be conducted in 
U.N. headquarters.
    Let me give you two important examples. The two missions 
that have contributed most recently to increases in the U.N. 
regular budget have been the U.N. missions in Iraq and 
Afghanistan. Those two missions are directly serving our 
interests. They have been formed largely at our initiative, to 
augment and support the work of our troops in the field.
    We currently pay, under the regular budget, 22 percent of 
the costs of those missions, which are together over $0.5 
billion. If we took the view that we will only pay for those 
missions that we like--our share is $0.5 billion.
    If we were to pay for only those missions that we like, we 
would find ourselves paying 100 percent of costly--or close to 
100 percent of costly, important missions like that, rather 
than 22 percent. And our net costs would quite likely be 
higher.
    As I mentioned earlier, when it comes to the peacekeeping 
budget, there is nothing that we are asked to pay for that we 
haven't previously voted to create. All of those missions are 
created by a vote in the Security Council, and the U.S. can say 
yes, because we want it and we believe it serves our interests, 
or no.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Meeks. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Meeks. And 
thank you, Madam Ambassador. Mr. Rivera of Florida.
    Mr. Rivera. Thank you, Madam Chair. I want to go back to 
this issue of the punching bag that has been mentioned before. 
Israel, our greatest ally, being a punching bag of the United 
Nations, which I completely agree with.
    But I want to talk first about the United States being the 
punching bag, particularly vis-a-vis U.S. policy toward Cuba. 
And I am wondering, we always have a yearly vote, that yearly 
spectacle when the United Nations uses the U.S. as a punching 
bag and votes against U.S. policy of isolating the Castro 
dictatorship economically, even though, as has been mentioned 
previously, the Castro regime is recognized as a state sponsor 
of terrorism by our own Government.
    It is a regime that is harboring fugitives from U.S. 
justice, including cop killers, drug traffickers. A regime that 
has murdered Americans in international airspace, as occurred 
in 1996 in the Brothers to the Rescue shoot down. And I am 
wondering what efforts do you make personally to try and garner 
support for U.S. policy toward Cuba?
    Ambassador Rice. First of all, we firmly and unequivocally, 
at every opportunity, condemn, for the very reasons you 
described, Cuba's human rights record and its long-standing 
record of abuses, as well as its record of support for 
terrorism.
    Secondly, every year, when the resolution comes before the 
General Assembly, we work hard--I myself and my colleagues at 
the U.S. mission--to garner as many votes in conjunction with 
our position of voting against the resolution as we can muster.
    And we have a small core of countries, including Israel, as 
you pointed out, that regularly and loyally stand with us on 
this. And we every year make efforts to expand that grouping. 
But I think, as you well know, as we strongly make our case for 
our policy, which is a bilateral policy, on the embargo at the 
U.N., and we work to gain votes, we are in a minority, and a 
small minority.
    As you well know, the embargo has limited international 
support, and even our closest allies, like Canada and the 
European partners, don't share our view. And this is an issue 
that has been and will remain an annual irritant.
    Let me also address more broadly, though, Cuba's standing 
at the United Nations, and what we do to deal with that. Cuba, 
once upon a time, had a lot of juice at the United Nations, and 
a lot of support and influence. And that influence is 
dramatically diminished.
    It is increasingly isolated within the Latin American 
Group. It is increasingly isolated within the general 
membership. And let me give you a couple of examples. We have 
heard about the Human Rights Council, and our frustration with 
that, which we share.
    But there are no more than five countries out of 47 on the 
Human Rights Council, at the present, Cuba being one of them, 
whose record on human rights we would all agree is absolutely 
abysmal.
    The other 42 are either upstanding countries, or countries 
that are somewhere in the middle. Cuba is at the bottom, but it 
is losing ground. At the Human Rights Council this year, Cuba 
worked very, very hard to block the creation of a Special 
Rapporteur on Freedom of Assembly, and was roundly defeated. 
That passed unanimously by the Human Rights Council.
    It also tried to upset the process of our periodic review, 
and other countries pointedly condemned Cuba.
    Mr. Rivera. I only have 1 minute left. I appreciate those 
comments, and I think it speaks to the fact that if Cuba's 
standing is diminishing so much, it should allow space for you, 
in your capacity, to make even greater progress on bringing 
allies toward the United States' position on Cuba. In 
particular, those allies that maybe do not have the 
relationships with Cuba that some of those that you mentioned 
earlier.
    But there are a lot of countries on the planet, and I hope 
you will make every effort to internationalize U.S. policy, 
because it is the just policy, considering what you have just 
mentioned, the dismal human rights record by the Castro 
dictatorship. So I hope you will make every effort to continue 
to garner that support for our policy.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Rivera. Mr. 
Deutch?
    Mr. Deutch. Thank you, Madam Chair. Ambassador Rice, I 
wanted to turn to Iran. And as we look at recent events in the 
Middle East, it seems that Iran has been emboldened. On 
Tuesday, the Iranian Ambassador to the U.N. was quoted as 
saying that the geopolitical picture of the region is changing 
in favor of Iran. Reports in the last several weeks indicate 
that Iran is continuing to move toward weaponization, and Iran 
continues to look for ways to evade international sanctions.
    I would like to commend you for the role that you have 
played, first in the U.N. sanctions against Iran last year. The 
efforts that, again, you helped to spearhead, to keep Iran off 
of the Human Rights Council. And particularly the creation of 
the Special Rapporteur on Iran, hopefully focusing on Iranian 
human rights abuses.
    On a going-forward basis, as we look to events unfolding in 
the region and steps that can be taken to focus on the threats 
that Iran poses, if the regime continues to defy the IAEA and 
moves ahead with its illicit nuclear program, would the 
Security Council impose another round of sanctions that would 
include even greater sanctions to choke off the energy sector? 
I wonder if there have been discussions with Security Council 
members about strengthening existing sanctions.
    And of greatest concern to me, if you could address what 
you think it would take to get China, who continues to make $1-
billion investments in Iran's oil fields, and the Russians, who 
recently spoke of rolling back sanctions, to cooperate and 
support another resolution.
    Ambassador Rice. First of all, thank you very much for your 
kind words in support of our efforts, both in the Security 
Council and other bodies, with respect to Iran.
    We have been very plain that we will stand up and condemn 
and seek to isolate Iran for its human rights record and its 
abuses, both in multilateral fora and nationally, as we have 
continued to impose sanctions on individuals responsible for 
Iran's human rights abuses.
    And we will do all that we can to prevent Iran from 
obtaining a nuclear capacity. We do that through a variety of 
means. Through multilateral measures, as we have in the United 
Nations Security Council, and I will come back to what more we 
can do.
    But also, as you know, through your excellent legislation 
and national measures that we have taken and continue to take, 
to implement not only the Security Council resolutions, but the 
measures and authorities given to us by Congress.
    Inside the U.N., I think in the short term there is scope 
for tightening enforcement and implementation of 1929 and 
previous resolutions, which are having a significant impact, 
and we are regularly getting the support of countries from 
Nigeria to Asia in blocking an intercepting--and obviously 
Israel--Iranian arms shipments.
    So there is a panel of experts, there is a sanctions 
committee, all of which can help tighten enforcement of 
existing measures. I think it needs to be acknowledged that 
China and Russia worked with us to pass that important 
resolution. They have implemented it to the letter, and we have 
asked them to do more.
    Russia has dealt with the S-300s, which is above and beyond 
the resolution. China, we have been pressing not to backfill 
investments. And thus far, we have seen good response to that 
sort of request.
    In terms of a new resolution in the short term, sir, I 
think that is unlikely to be viable. But obviously over time, 
and also in response to actions that Iran may take, we will 
continue to keep multilateral action, including Security 
Council action, on the table.
    Mr. Deutch. And I appreciate that. And just in my remaining 
minute, in addition to these resolutions on nuclear 
proliferation activities, Iran has consistently been found to 
be in violation of arms transfer resolutions.
    The interception of the Victoria by the Israeli navy with 
2,500 mortars and 65,000 rounds of ammunition--the 
interception, again, seizure of illegal arms shipments by 
Nigeria in February, the Turkish seizure of an Iranian cargo 
vessel carrying 60 AK-47s and 200 mortar shells--Iran has 
continued to violate Security Council Resolution 1747.
    I would respectfully request that you continue to look for 
ways to penalize Iran for non-compliance with that resolution, 
which prohibits Iranian arms exports.
    Ambassador Rice. Thank you.
    Chairman Ros-Lehtinen. Thank you so much. And Madam 
Ambassador, I know that based on our previous arrangement you 
have to be back at the White House at 1 o'clock. And so we 
appreciate your time. I give my deepest apologies to Mr. Kelly 
of Pennsylvania, Ms. Buerkle, who is our U.N. representative 
from our committee. And so I hope that you work well with Ms. 
Buerkle. She is our Ambassador. And Mr. Keating of 
Massachusetts. And thank you, Congresswoman Sewell, for joining 
us.
    So Madam Ambassador, thank you very much for your excellent 
testimony. We look forward to working with you on U.N. reform, 
an issue we both are passionate about.
    Ambassador Rice. Thank you, Madam Chairwoman.
    Chairman Ros-Lehtinen. Thank you, and the committee is--oh, 
I am sorry.
    Ambassador Rice. Thank you very much for your leadership, 
and your kindness, and that of all of your colleagues. And 
please come visit us.
    Chairman Ros-Lehtinen. You are a good friend. And Ms. 
Buerkle will be right there. The committee is now adjourned.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Burton FTR deg.__

   Material Submitted for the Record by the Honorable Dan Burton, a 
          Representative in Congress from the State of Indiana

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Questions--Ros-Lehtinen deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: Responses to these questions were not received prior to 
printing.]
                               <greek-l>Questions--Engel deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: Responses to these questions were not received prior to 
printing.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
